UN ITED STATES OF AM ERICA

FEDERAL TRADE COMMISSION
W ASH IN GTO N , D .C. 20580

D ivision of M arketing Practices
Craig Tregillus
ctregillus@ ftc.gov

D irect D ial: (202) 326-2970
Facsim ile: (202) 326-3395

April 16, 2009
Mr. David Nixon, President
Nixon Consulting, Inc.
P.O. Box 440
Chatham, IL 62629-0440
Dear Mr. Nixon:
You have requested clarification of the portion of Staff Opinion 07-2 that addressed the
use of a vehicle to obtain death certificates.1 That opinion stated staff’s view that if the use of an
automobile to obtain necessary permits and death certificates is “common to virtually all forms
of disposition or arrangements” of a funeral provider, the cost should be included in the
provider’s basic services fee. The opinion added that a separate charge for the use of a vehicle
could be included in the provider’s General Price List (“GPL”) only if the use of a vehicle for
that purpose is not “common to virtually all forms of disposition or arrangements.”
As an initial matter, the test of whether a service is “common to virtually all forms of
disposition or arrangements” does not apply to the 13 specific services the Rule requires a
provider who offers those services to itemize in its GPL.2 That is because the definition of the
basic service fee in Section 453.1(p) of the Rule,3 expressly excludes fees for those services.
The Rule states that the basic services covered by the fee are “not to be included in other
categories [of the mandatory GPL disclosures] in § 453.2(b)(4)” of the Rule.4
Conversely, none of the fees for the specific services that the Rule requires a provider to
itemize in the GPL may be included in the basic services fee. These fees must be separately
disclosed as mandated by the Rule, regardless of whether or not they are common to “virtually
all forms of disposition or arrangements.” Accordingly, the costs of “Other Preparation of the
Body,” “Transfer of Remains,” and the use of a “Hearse” should not be included in the basic

1

Staff Opinion 07-2 (Mar. 21, 2007), available at http://www.ftc.gov/bcp/conline
/edcams/funerals/opinions/opinion07-2.pdf.
2

16 C.F.R. § 453.2(b)(4)(A)-(M).

3

16 C.F.R. § 453.1(p).

4

16 C.F.R. § 453.2(b)(4).

Mr. David Nixon
Page 2 of 3
services fee because the Rule requires funeral providers to itemize the prices of each of these
three services separately in the GPL.
You question why a separate charge for the use of a vehicle to obtain permits is not
permitted when the use of a vehicle for “Transfer of Remains” is no less “common to virtually
all dispositions or arrangements.” The answer is that Section 453.2(b)(4) of the Rule requires an
itemized price for “Transfer of Remains,” but does not require an itemized price for the use of a
vehicle to obtain permits or death certificates. If the use of a vehicle to obtain permits or death
certificates is “common to virtually all dispositions or arrangements,” this cost is basically an
overhead cost that should be included in the basic services fee.
You also ask whether it would still be the case that the use of a vehicle to obtain death
certificates, although “common to virtually all dispositions or arrangements” of a funeral
provider, may not be listed separately in the provider’s GPL if the provider receives remains
from other funeral homes that have obtained death certificates already. The answer depends, of
course, on the relative proportion of the funeral provider’s arrangements involving receipt of
remains from other funeral homes that have obtained the death certificates compared to its
regular funeral arrangements, and cannot be answered definitively in the abstract. If the receipt
of such remains is infrequent or occasional at best, amounting to a de minimis portion of a
funeral provider’s business, the provider would have no basis for listing a separate fee in its GPL
for the use of a vehicle to obtain death certificates.5
Finally, you inquire whether a funeral provider can include a separate charge in its GPL
for the use of a vehicle to obtain permits simply by deleting any reference to “obtaining
necessary permits” from its description of the services included in the basic services fee. If
obtaining permits is not “common to virtually all form of disposition or arrangements,” a funeral
provider should not include that cost in its basic services fee, and may list a separate fee in its
GPL for obtaining the permits, including the use of a vehicle to do so. On the other hand, if
obtaining permits is, in fact, “common to virtually all forms of disposition or arrangements,” the
funeral provider should include all the costs of obtaining them, including the use of a vehicle, in
its basic services fee.
In view of your questions, it is worth emphasizing that funeral providers may include the
cost not only of the services of the funeral director and staff in the basic services fee, but also
such overhead costs as the cost of operating a vehicle used to obtain permits or death certificates,
as noted above. In addition, there is nothing in the Rule to prevent a funeral provider from
placing reasonable limits on the time it will spend and/or the distance it will travel to obtain

5

Nothing in the Rule, however, prevents a funeral provider from limiting the
quantity of death certificates it will obtain as part of its basic services to the number of copies
that is “common to virtually all forms of dispositions or arrangements,” provided that this
limitation is spelled out in the description of the “principal basic services provided” in return for
the basic services fee as required by § 453.2(b)(4)(iii)(C)(1) of the Rule, 16 CFR
§ 453.2(b)(4)(iii)(C)(1), and separately listing a fee in its GPL for additional copies.

Mr. David Nixon
Page 3 of 3
permits or death certificates as part of its basic services fee, and listing a separate fee on its GPL
for any additional time and/or distance that may be required in unusual circumstances. A funeral
provider will, of course, have the burden of demonstrating that any such limits are reasonable,
and broad enough to encompass “virtually all dispositions or arrangements.”
As you know, the views expressed in this letter are those of the FTC staff. They have not
been reviewed, approved, or adopted by the Commission, and they are not binding on the
Commission or any individual Commissioner. However, they do reflect the views of FTC staff
charged with enforcement of the Funeral Rule. Staff Funeral Rule opinions are routinely posted
on the FTC website at http://www.ftc.gov/bcp/conline/edcams/funerals/staffopinions.shtm.
Sincerely,
/s/
Craig Tregillus
Funeral Rule Coordinator

